Before the Committee on Transportation and Infrastructure
Subcommittee on Highways and Transit
United States House of Representatives


For Release on Delivery
Expected at
                          Status of Safety
1:00 p.m. EDT
Tuesday
March 13, 2007
                          Requirements for Cross-
CC-2007-029
                          Border Trucking With
                          Mexico Under NAFTA




                          Statement of
                          Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman DeFazio,        Ranking    Member      Duncan,       and     Members         of    the
Subcommittee:

We appreciate the opportunity to testify today as you evaluate the status of safety
requirements for cross-border trucking with Mexico under the provisions of the
North American Free Trade Agreement. The cross border demonstration project
announced by the Administration to allow a select group of Mexican trucking
companies to operate beyond the commercial zones along the southwest border
has refocused attention on this area.

Since 1998 we have issued seven reports and testified twice before Congress on
our findings and recommendations on the Department’s efforts to improve cross-
border trucking safety and meet requirements established, in large part, by this
Subcommittee. We expect to issue our eighth report shortly, and this work will be
the basis for my testimony today.

As you know, the Department of
Transportation’s (DOT) Fiscal Year         Table. Section 350(c)(1) Criteria Subject
2002 Transportation Appropriations                      To OIG Audit
Act (Section 350) 1 established a
number of safety requirements and          (A) Filling and training inspection positions
                                           (B) Training inspectors conducting on-site reviews
preconditions before the Federal                as safety specialists
Motor Carrier Safety Administration        (C) Not transferring inspectors to fill positions
(FMCSA) may process applications           (D) Implementing an hours-of-service policy
                                           (E) Having a sufficiently accurate, accessible, and
from Mexican motor carriers for                 integrated information infrastructure and
operating beyond the commercial                 adequate telecommunications links
zones. In addition, before Mexican         (F) Having adequate capacity at crossings to
motor carriers can operate under                conduct meaningful inspections
                                           (G) Sufficient databases to allow safety monitoring
authority granted by FMCSA, the                 of Mexican carriers and drivers
Inspector General (IG) must review         (H) Measures for ensuring effective enforcement
eight specific criteria, as shown in the        and monitoring of Mexican carrier licensing
                                           ______________________________________
table.                                     Source: Fiscal Year 2002 Transportation
                                           Appropriations Act
After this review, Mexican carriers
that have been granted operating
authority by FMCSA may proceed to operate beyond the commercial zones,
provided the Secretary of Transportation certifies, in a manner addressing the IG’s
findings, that such operation does not pose an unacceptable risk to the American
public. Our initial review of the eight criteria was completed in June 2002 and the
Secretary’s certification followed in November 2002. We have continued to
review border operations, as required by Congress.
1
    Public Law 107-87.
                                                                                                                   2

      Significant Progress Has Been Made in Border Safety
      Data from our current review and earlier reports point to continual improvement in
      the border safety program. For example, FMCSA has hired and trained the
      inspectors, as required by the Act, thus the average number of inspections per
      Mexican motor carrier has increased over time. As a result, both the number of
      FMCSA inspectors at the border and the percentage of Mexican trucks taken out
      of service after inspection have improved dramatically. In 1998 we reported that
      FMCSA had only 13 Federal inspectors at the southern border, and that 44 percent
      of Mexican trucks inspected in FY 1997 were removed from service because of
      safety violations. By contrast, as shown in the figure, audit work now underway
      found 254 FMCSA enforcement personnel at the border (which includes
      128 inspectors), and the percentage of Mexican trucks placed out of service
      following inspections had dropped to 20 percent in FY 2005, a figure comparable
      to the out-of-service rate for U.S. trucks.

          Figure. Comparison of Border Inspectors and Mexican Trucks
                       Taken Out of Service Over Time

      FMCSA Border Inspectors                                          Mexican Trucks Taken Out of Service

                                                              100
                                           254
300
                                                                80
250
                                           126
                                           126                  60
200

150
                                                                40
100
                        13                 128*                              44%
                                                                20
50                                                                                                    20%
 0                                                               0
                 1998                   2006                                FY 1997                  FY 2005

      *Data as of June 2006. In addition to inspectors, another 126 FMCSA enforcement personnel
      identified included 49 auditors, 47 investigators, and 30 supervisors or support staff.

      Our current work also assessed FMCSA’s actions in response to our last report to
      the Department, issued in January 2005. 2 In that report we found that FMCSA
      had in place the staff, facilities, equipment, and procedures necessary to
      substantially meet the eight specific criteria.          The report made four
      recommendations for improvement, which addressed actions relevant to the eight
      criteria. Of the four issues, two have been adequately addressed.

      2
          OIG Report Number MH-2005-032, Follow-up Audit of the Implementation of the North American Free Trade
          Agreement’s (NAFTA) Cross Border Trucking Provisions, January 3, 2005. OIG reports are available on our web
          site: www.oig.dot.gov.
                                                                                                                       3


FMCSA and the states have made significant progress in resolving problems
associated with making sure all states can take effective enforcement action
against Mexican motor carriers. One of the criteria 3 subject to IG review calls
for measures in place to ensure “effective enforcement” and monitoring of
Mexican motor carrier licensing. The five states, which had not yet done so at the
time of our last report, have adopted a rule requiring enforcement action against
Mexican motor carriers or others operating without proper authority from
FMCSA. Thus, all states can now place vehicles out of service or take equivalent
action for operating authority violations. State officials also reported they are
experiencing less difficulty in implementing these rules due to changes in the
Commercial Vehicle Safety Alliance 4 criteria and training provided by both the
Alliance and FMCSA.

A remaining concern we have based on contacts with officials in three states
outside the border region involves procedures for obtaining information on the
status of a carrier’s operating authority. For example, officials at two states
contacted noted difficulties with determining operating authority because the
police cars did not have Internet access for checking the status of carriers.
However, the two officials did not know about the 800 number from FMCSA that
could be used for that purpose. At another state, the official contacted was aware
of the 800 number but said few of the cars had cell phones to call FMCSA’s 800
number. In our view, these examples illustrate how important it is for FMCSA to
provide continued training on the topic and to maintain a good information support
system so that motor carrier enforcement officials have the information they need
to identify carriers operating without proper authority. We will continue to
monitor this issue as part of our annual reviews.

FMCSA has also taken action needed to make certain weighing scales are
fully operational. 5 Our 2005 report found that while weigh-in-motion scales
were in place at the ten highest-volume crossings, at the time of our visits, the
scales were not working at four Texas facilities.          In response to our
recommendation to identify actions needed to make all weigh-in-motion scales
fully operable, FMCSA said it would require each of the three border states
(Arizona, California, and Texas) having weigh-in-motion scales to have a
maintenance program included in their commercial vehicle safety plans. Our
current review verified that the plans do include this requirement, and we

3
    Section 350 (c)(1)(H).
4
    The Commercial Vehicle Safety Alliance is an organization of Federal, state, and provincial government agencies
    and representatives from private industry in the United States, Canada, and Mexico, dedicated to improving
    commercial safety.
5
    This action complies with the Section 350 (a) requirement that weigh-in-motion scales be in place at the ten highest-
    volume southern border commercial crossings, and with the Section 350 (c)(1)(F) criteria that those border crossings
    have the capacity to conduct meaningful motor carrier inspections.
                                                                                 4

confirmed through visits or FMCSA documentation that all weigh-in-motion
scales are operable.


Two Section 350 Criteria Require Additional Attention
Despite the progress that FMCSA has made, additional improvements are needed
in two of the eight Section 350 (c) criteria subject to OIG review.

 Improving the quality of the data used to monitor Mexican commercial driver
       traffic convictions in the United States.

 Ensuring adequate capacity to inspect buses.
I will discuss each of these issues in-depth, along with two that are outside the
specific requirements of Section 350 but which FMCSA and the Department
should continue to address.

 Full implementation of a FMCSA policy on compliance with Federal motor
       vehicle manufacturing safety standards.

 Continued attention needed on drug and alcohol testing issues.
Finally, I will conclude today with preliminary observations about the announced
cross border demonstration project.



Three Systems are in Place to Monitor Mexican Carriers and
Drivers, But Data for One of the Three Systems Were Incomplete
One criteria of the Act 6 calls for an accessible database containing “sufficiently
comprehensive data” for monitoring all Mexican motor carriers and their drivers
that apply for authority to operate beyond the municipal and commercial zones on
the United States-Mexico border. Three systems have been established to meet
this requirement.

The first system monitors Mexican carriers in the United States granted long-haul
authority. It is designed to identify carriers requiring compliance reviews,
generate letters on corrective actions, and create a history of violations and
corrective dates. Our prior audit work has verified that the system is operational.



6
    Section 350 (c)(1)(G).
                                                                                                     5

The second system, Mexico’s Licencia Federal Information System (LIFIS),
contains records showing Mexican motor carrier commercial drivers with valid,
disqualified, or expired licenses. Our work indicates that LIFIS is being accessed
for enforcement purposes and the data were sufficient.

The third system, which is called the 52nd State System, contains records of traffic
violations Mexican commercial drivers commit in the United States. Our current
work found the system’s data were incomplete. I will now discuss this issue in
more detail.

52nd State System is Operational but Data Issues Require Continued
Attention
The 52nd State System is needed to ensure that U.S. officials can disqualify
Mexican commercial drivers operating in the United States for the same offenses
that would lead to the disqualification of a U.S commercial driver. We found that
49 states and the District of Columbia can electronically record convictions into
the 52nd State System. 7 However, the data also show that inconsistencies and
reporting problems found previously at the border states with the 52nd State
System still require continued action and monitoring. For instance:

 Data that Texas reported in the database showed a dramatic decline in the
      number of traffic convictions for Mexican-licensed drivers from January
      through May 2006. When we brought this anomaly to FMCSA’s attention in
      July 2006, it investigated the situation and found that Texas had stopped
      providing conviction information to the database. Subsequently, after
      developing an action plan with the state, FMCSA reported that Texas has
      eliminated a backlog of some 40,000 Mexican commercial driver’s license
      tickets. We do not know how long it took for the backlog to develop. The
      period could go back to well before 2006. According to FMCSA, Texas has
      the ability to provide information to the database electronically but it is
      currently providing information to the database using a manual process
      pending development of a new computer system this year.

 Our current review also found that New Mexico stopped reporting traffic
      convictions for Mexican commercial drivers to the database after July 2005. A
      subsequent review by FMCSA found that the problem was due to incorrect
      computer programming, which was to be corrected by the end of July 2006.

 Arizona and California also experienced problems that prevented some traffic
      convictions of Mexican commercial drivers from being properly recorded into

7
    The remaining state, Oregon, has committed to completing a test of its system by September 2008 and
    continues to submit its data on U.S. and Mexican violations manually to the 52nd State System.
                                                                                     6

       the database. California was scheduled to make a change to correct the issue
       by October 2006. Arizona was implementing a manual procedure to address
       the problem and was scheduled to begin a change in the computer system this
       month.

To its credit, FMCSA took quick action during our current review to work with
the four border states to develop corrective action plans addressing these issues.
But strong follow-up action by FMCSA will be necessary to ensure that these
plans are implemented. Alternatively, interim solutions should be implemented if
the plans cannot be completed in a timely fashion. We also recommend that
FMCSA develop a process that ensures performance of a quarterly inspection of
the database, notification to states of data inconsistencies, and assurance that states
take immediate steps to correct inconsistencies. The process must also ensure that
this monitoring extends beyond the border states to identify problems that develop
if Mexican carriers operate more extensively outside the border states during the
demonstration project.


Positive Action Taken to Improve Bus Inspection Coverage, But
Additional Issues Should Be Addressed

As I previously mentioned, further improvements are needed to support border
inspections of Mexican buses. However, at this time, DOT does not plan to
include commercial buses in the demonstration project for cross-border trucking.

The Act’s criteria 8 call for adequate capacity at crossings to conduct a sufficient
number of vehicle inspections and driver licensing checks; these criteria apply to
buses as well as trucks. The Act provides no specific guidance distinguishing
commercial buses from commercial trucks, although buses operate differently
from commercial trucks at the border. Buses are permitted to enter the United
States at separate border crossings and at times when commercial trucks are
restricted. While our January 2005 report identified no issues specific to truck
inspections, we found that sufficient staff was not available at some designated
bus crossings to meet the Act’s requirements for verifying the driver’s commercial
license and inspecting vehicles.

Our 2005 report recommended that FMCSA revise polices, procedures, staffing,
and facility plans to make Mexican bus coverage consistent with FMCSA policy
on vehicle and driver inspections for commercial trucks that are granted long-haul
authority. In response to our report, FMCSA worked with the U.S. Customs and
Border Protection Service to identify mutually acceptable procedures. FMCSA, in

8
    Section 350 (c)(1)(F).
                                                                                  7

February 2006, issued a Southern Border Commercial Bus Inspection Plan
identifying ports of entry for commercial buses in each southern border state,
along with a description of their respective bus inspection issues and the planned
strategies for addressing those issues.

The bus inspection plan represents a positive step, but our current work identified
additional bus inspection issues that should be addressed in the FMCSA plan. For
example, as part of our September 2006 audit work at the Lincoln-Juarez crossing
in Laredo, Texas, we identified physical space and capacity issues that prevented
FMCSA and the state motor carrier inspectors from conducting bus inspections
during high volume holiday periods. This important issue was not identified in
FMCSA’s Southern Border Commercial Bus Inspection Plan. Additional potential
issues with bus inspections, such as the lack of a ramp on which to conduct
inspections, were brought to our attention during contacts with inspectors at other,
randomly selected border crossings.

These issues could affect the implementation of the Act’s requirements for bus
inspections if Mexican passenger carriers are granted long-haul authority to
operate beyond the commercial zone.

Two Non-Section 350 Issues Not Specified in the Act
Also Need Continued Attention
Action is needed on implementing FMCSA’s policy from 2005 on compliance
with motor vehicle safety manufacturing standards. Our 2005 report discussed
a pending rule that would have required all carriers operating in the United States,
including Mexican motor carriers, to display a label that the vehicle was certified
by the manufacturer as meeting all applicable Federal motor vehicle safety
standards. In August 2005, FMCSA subsequently withdrew the rule based on its
determination that it could effectively ensure compliance with the Federal motor
vehicle safety standards through effective enforcement of the current motor carrier
safety regulations and policies. At the same time it issued internal policy to its
staff on compliance with motor vehicle safety standards, which included
instructions on how inspectors could use vehicle identification numbers to make
this determination. FMCSA reported that certain procedures in the policy had
been implemented; however, the policy noted that further guidance would be
forthcoming before the policy would go into effect. To date, no additional
guidance has been provided although FMCSA reported that they were reassessing
whether future guidance is necessary.

Prompt resolution of the issue and full implementation of this policy on
compliance with motor vehicle safety standards will help ensure that inspectors
are able to identify vehicles not meeting the requirements established for Mexican-
                                                                                                            8

domiciled carriers. FMSCA has issued a policy requiring Mexican-domiciled
carriers applying to operate in the United States to certify that their vehicles were
manufactured or retrofitted in compliance with Federal motor vehicle standards
applicable at the time they were built, and plans to confirm that certification
during the pre-authority safety audit and subsequent inspections. If FMSCA or
state inspectors determine, through vehicle inspections or during a pre-authority
safety audit, that Mexican motor carriers are operating vehicles that do not comply
with the safety standards, FMSCA may use this information to deny, suspend, or
revoke a carrier’s operating authority or certificate of registration, or issue
penalties for the falsification.

Further, SAFETEA-LU 9 charged the Administrator of FMSCA with conducting a
review to determine the degree to which Canadian and Mexican commercial motor
vehicles comply with Federal motor vehicle safety standards. This review was to
have been completed within 1 year of enactment—by August 2006. The review
has not yet been released by the Department.

Continued attention is needed on drug and alcohol testing issues. FMCSA has
issued a policy as required under the Act regarding drug and alcohol testing.
However, issues noted in our last report on this topic but not included in the Act’s
requirements need continued attention. In our 2005 report, we noted that Mexico
lacked a certified drug-testing laboratory, but that drug and alcohol test-collection
facilities in Mexico were sending specimens to certified labs in the United States.
In a 1998 memorandum of understanding between DOT and its Mexican
equivalent, the Mexican authorities agreed to follow collection procedures
equivalent to those used by DOT. In 2005, we recommended that FMCSA
establish milestones to ensure Mexican motor carrier drug and alcohol testing
issues—such as the adequacy of controls at collection sites—are addressed. Our
current work shows that FMCSA has continued to meet with officials on these
matters. Given the announcement of the new demonstration project, FMCSA
should continue to work, in conjunction with other appropriate offices, to ensure
that drug and alcohol procedures, such as the establishment of sufficient controls
at collection sites, are adequate.


Observations on the Cross-Border Demonstration
Project
I would now like to turn to the just-announced cross border demonstration project.
While our current audit did not include an assessment of this program, we would
offer the following two immediate observations based on current and past work:
9
    Safe, Accountable, Flexible, Efficient Transportation Equity Act:   A Legacy for Users (Public Law 109-59,
    August 10, 2005).
                                                                                   9


¾ FMCSA will need to establish good screening mechanisms at the border
   crossings, in cooperation with the U.S. Customs and Border Protection
   Service, to ensure that long-haul trucks participating in the demonstration
   project are identified for required licensing checks and inspections from
   among the large number of commercial trucks entering the United States daily
   at each commercial crossing. FMCSA’s Cross-Border Truck Safety Program
   states that “every truck that crosses the border as part of the pilot will be
   checked—every truck, every time.” This could be problematic. Some
   4.6 million commercial trucks entered the United States from Mexico in FY
   2005. To screen out demonstration project participants from among this high
   volume of traffic, it will need to simultaneously screen vehicles participating in
   the demonstration project from among all commercial traffic crossing the
   border while also continuing to inspect vehicles and check drivers. Screening
   carriers participating in the demonstration project may very well require close
   coordination with Customs and Border Protection agents, who have initial
   interaction with these motor carriers. Our observations at one high-volume
   border crossing illustrate the challenge posed in screening demonstration
   project participants.

   Hundreds of vehicles entered the United States at the high-volume crossing
   each day; FMCSA selected vehicles for inspection from the line of trucks
   waiting to exit the border crossing. However, once the vehicles were diverted,
   no FMCSA personnel remained at the screening point to monitor carrier traffic.
   Unless this practice is changed, or other procedures for screening are
   developed in conjunction with U.S. Customs and Border Protection Service for
   the demonstration project, FMCSA’s commitment to check every truck, every
   time, could be at risk.

¾ FMCSA needs to establish clear objectives, milestones, and measures of
   success. The demonstration project could provide a good opportunity to test
   FMCSA’s preparations, evaluate the agency’s performance, and assess the
   risks, if any, posed by opening the border. However, the agency should
   establish meaningful criteria for measuring the demonstration project’s success
   and for determining whether to open the border to a greater number of
   Mexican carriers at its conclusion. Information provided to us to date does not
   include details of how the demonstration project’s success will be evaluated.

This concludes my statement. Attached to my statement is additional information
on our prior audit reports. I would be pleased to answer any questions that you
may have at this time.
                                                                                10

Prior Audit Coverage by the Department of Transportation’s
Office of Inspector General


OIG Report Number MH-2005-032, “Follow-up Audit of the
Implementation of the North American Free Trade Agreement’s
Cross-Border Trucking Provisions,” January 3, 2005
We reported that FMCSA has sufficient staff, facilities, equipment, and
procedures in place to substantially meet the eight Section 350 safety provisions
subject to OIG review in the FY 2002 Transportation and Related Agencies
Appropriations Act (The FY 2002 Act). However, until an agreement or other
understandings related to on-site safety reviews is reached with Mexico, FMCSA
cannot, in our view, grant long-haul operating authority to any Mexican motor
carrier. Additionally, given new background requirements for U.S. drivers
applying for hazardous materials endorsements, an agreement will need to be in
place with Mexico to cover similar background requirements for vehicles owned
or leased by Mexican motor carriers hauling hazardous materials. While
negotiations are being carried out with Mexico on these two issues, which are
preconditions to opening the border, FMCSA should close remaining gaps in
reaching full compliance with Section 350 requirements related to bus coverage,
enforcement authority, Weigh-in-Motion Systems, and the comprehensiveness of
the data system used to monitor Mexican driver records in the United States.

OIG Report Number MH-2003-041, “Follow-up Audit on the
Implementation of Commercial Vehicle Safety Requirements at
the U.S.-Mexico Border,” May 16, 2003
We reported that FMCSA had substantially completed the actions necessary to
meet Section 350 requirements, although the report noted several incomplete items
in need of action. Specifically, FMCSA needed to fill 3 enforcement personnel
vacancies to reach the target of 274, complete an agreement at one of 25 border
crossings to permit detaining of commercial vehicles, and ensure states adopt
FMCSA’s rule authorizing their enforcement personnel to take action when
encountering a vehicle operating without authority.

OIG Report Number MH-2002-094, “Implementation of
Commercial Vehicle Safety Requirements at the U.S.-Mexico
Border,” June 25, 2002
We reported that FMCSA made substantial progress toward meeting the FY 2002
Act requirements to hire and train inspectors, establish inspection facilities, and
develop safety processes and procedures for Mexican long-haul carriers. FMCSA
proposed to complete within 60 days those actions that were in process and
                                                                              11

planned to meet the Act’s requirements, except the hiring and training of safety
investigators and training supervisors.

OIG Report Number MH-2001-096, “Motor Carrier Safety at the
U.S.-Mexico Border,” September 21, 2001
Our audit recommended that FMCSA strengthen safety controls at the border in
the areas of staffing, safety reviews and inspections, enforcement, facilities,
rulemakings, and outreach.

OIG Report Number MH-2001-059, “Interim Report on Status of
Implementing the North American Free Trade Agreement’s
Cross-Border Trucking Provisions,” May 8, 2001
Our audit found that: (1) the percentage of Mexican trucks removed from service
because of serious safety violations declined from 44 percent in FY 1997 to
36 percent in FY 2000; (2) FMCSA increased the authorized number of inspectors
at the southern border from 13 in FY 1998 to 60 in FY 2001, and requested
80 additional enforcement personnel in its FY 2002 budget request; and (3) there
had been few needed improvements to inspection facilities used by Federal and
state commercial vehicle inspectors at border crossings.

OIG Report Number TR-2000-013, “Mexico-Domiciled Motor
Carriers,” November 4, 1999
We found that Mexico-domiciled motor carriers were operating improperly in the
United States and violating U.S. statutes either by not obtaining operating
authority or by operating beyond the scope of their authority.

OIG Report Number TR-1999-034, “Motor Carrier Safety Program
for Commercial Trucks at U.S. Borders,” December 28, 1998
We reported that the actions in preparation for opening the U.S.-Mexico border to
Mexican long-haul trucks did not provide reasonable assurance in the near term
that trucks entering the United States would comply with U.S. safety regulations.
With the exception of California, neither the Federal Highway Administration nor
the states’ plans provided for an adequate presence of inspectors at border
crossings for trucks currently operating in the commercial zones.
